No. 21-

IN THE

'upreme Court of the Enacts f§tateo
RAYMOND RODRIGUEZ-RIVERA,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the First Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,989 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 30, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

